Memorandum from the Office of the Inspector General



September 21, 2010

Robert M. Deacy, Sr., LP 5D-C

FINAL REPORT – INSPECTION 2008-12283-06 – REVIEW OF THE LONG-TERM
ENVIRONMENTAL RECOVERY PLAN FOR KINGSTON



Attached is the subject final report for your review and action. Your written comments,
which address your management decision and/or actions taken, have been included in the
report. Please notify us when final action is complete.

The Office of the Inspector General (OIG) contracted with Marshall Miller & Associates,
Inc., to conduct this review. All work pertaining to this review was conducted by Marshall
Miller. The OIG relied on Marshall Miller’s processes and procedures for quality control in
the attached report. Information contained in this report may be subject to public
disclosure. Please advise us of any sensitive information in this report that you
recommend be withheld.

If you have any questions, please contact Gregory R. Stinson, Project Manager, at
(865) 633-7367 or Gregory C. Jaynes, Deputy Assistant Inspector General, Inspections, at
(423) 785-4810. We appreciate the courtesy and cooperation received from your staff
during this review.




Robert E. Martin
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

GRS:NLR
Attachment
cc: See page 2
Robert M. Deacy, Sr.
Page 2
September 21, 2010




cc (Attachment):
      Robert J. Fisher, LP 3K-C
      Peyton T. Hairston, Jr., WT 7B-K
      Tom D. Kilgore, WT 7B-K
      William R. McCollum, Jr., LP 6A-C
      Stephen H. McCracken, KFP 1T-KST
      Annette L. Moore, LP 3K-C
      Richard W. Moore, ET 4C-K
      David R. Mould, WT 7B-K
      Anda A. Ray, WT 11A-K
      Emily J. Reynolds, OCP 1L-NST
      Joyce L. Shaffer, WT 9B-K
      John M. Thomas III, MR 3A-C
      Robert B. Wells, WT 9B-K
      Wendy Williams, WT 9B-K
      OIG File No. 2008-12283-06
                   Review of Long-Term Recovery Plans
                                          Dated September 21, 2010

                        Tennessee Valley Authority Kingston Fossil Plant (KIF)
                                        Harriman, Tennessee



                                                                                 Prepared for:




                                                                     TVA Office of the Inspector General
                                                                          Knoxville, Tennessee



                                                                                 Prepared by:




                                                                           Project No.: TVA104-03

                                                                              September 2010




Marshall Miller & Associates, Inc.
ENERGY/ENVIRONMENTAL/ENGINEERING/CARBON MANAGEMENT

5900 Triangle Drive
Raleigh, NC 27617
Tel (919) 786-1414 • Fax (919) 786-1418
www.mma1.com
                                                                  Review of Long-Term Recovery Plans
                                                                                   Kingston Fossil Plant
                                            Tennessee Valley Authority - Office of the Inspector General
                                     September 21, 2010 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                • Page 1


TITLE PAGE
Title of Report

Review of Long-Term Recovery Plans
Tennessee Valley Authority
Kingston Fossil Plant
Harriman, Tennessee


Effective Date of Report

September 21, 2010


Qualified Persons

MARSHALL MILLER & ASSOCIATES, INC.




Timothy D. Grant, P.G.                    Eric R. Powers, P.G.
Senior Project Manager                    Senior Geologist
                                                                                            Review of Long-Term Recovery Plans
                                                                                                             Kingston Fossil Plant
                                                                      Tennessee Valley Authority - Office of the Inspector General
                                                               September 21, 2010 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                          • Page 2


EXECUTIVE SUMMARY
         Marshall Miller & Associates, Inc. (Marshall Miller) was retained to review the long-
term recovery plans for the area affected by the December 22, 2008, Kingston Fossil Plant
(KIF) ash spill. Generally, Marshall Miller found no significant deficiencies in any of the
proposed alternatives for the restoration of the Swan Pond Embayment, including the selected
alternative. The documents prepared by TVA appear to be substantially in compliance with
applicable regulatory requirements stated in the Administrative Order and Agreement on
Consent between TVA and the US Environmental Protection Agency (EPA) and meet the
removal action objectives outlined in the Non-Time Critical1 Removal Action
Embayment/Dredge Cell Engineering Evaluation/Cost Analysis or as is more commonly known
the EE/CA. There were some discrepancies noted in the Human Health Risk Assessment, with
regard to certain selected input parameters, such as toxicity and exposure factors. However,
since the selected alternative includes the removal of all ash, any risk associated with leaving the
ash in place is reduced, and revisions to the risk assessment are not necessary. TVA has
committed to incorporating the findings in future Human Health Risk Assessments.

         The selected alternative (3b)2 calls for all ash to be excavated from the embayment and
disposed onsite within the Dredge Cell, which will be closed in place. The selected alternative
includes closure of the Ash Pond concurrent with closure of the Dredge Cell. Marshall Miller
reviewed each of the proposed remediation alternatives for compliance with the removal action
objectives outlined in the Administrative Order and Agreement on Consent. The objectives
address the long-term protection of the environment by minimizing the possibility for exposure
of humans, plants, animals, and water (ground and surface) to the ash. Therefore, Marshall
Miller’s review focused on the various exposure pathways including air, surface water,
stormwater, sediment, and groundwater.




1
    The non-time critical ash consists of the ash in the embayments and on adjacent land. The time critical ash
    consisted of ash in the Emory River’s main channel and in the waters directly east of the site’s ash-storage area.
2
    There were three main alternatives studied for the removal of the non-time critical ash. However, there were
    slight variations of the three main alternatives denoted by ‘a’ and ‘b’ -- e.g. option 3b.
                                                                                 Review of Long-Term Recovery Plans
                                                                                                  Kingston Fossil Plant
                                                           Tennessee Valley Authority - Office of the Inspector General
                                                    September 21, 2010 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                               • Page 3

        While Marshall Miller found no significant deficiencies in any of the proposed
alternatives, the following observations were noted:

              Both the EE/CA and Non-Time Critical Removal Action Embayment/Dredge Cell
               Action Memorandum (Action Memorandum) are intended to provide only a
               conceptual design of each of the three alternatives. Since alternative 3b has been
               selected, a more detailed design will be needed, along with revised sampling plans
               for monitoring potential environmental impacts during excavation of the ash and
               closure of the Dredge Cell. Additionally, the EE/CA provides limited detail on
               the long-term monitoring of various media for potential environmental impacts.

              A more detailed understanding of groundwater flow and associated contaminant
               migration from the Dredge Cell to adjacent surface water is required in order to
               properly establish locations for long-term monitoring of wells.

           To address the observations, the following recommendations are provided to TVA:

              The appropriate sampling plans should be revised to address the modifications
               necessary due to the selection of alternative 3b for the restoration of the Swan
               Pond Embayment.

              A more detailed understanding of groundwater discharge and associated
               contaminant migration into the surface water is required in order to properly
               locate monitoring wells. Siting of the groundwater monitoring wells for the
               closed Dredge Cell should be based on the results of additional hydrogeological
               evaluation.

      TVA management agreed with the recommendations, and we concur with their planned
and completed actions. See the Appendix for a complete response.
                                                                                                      Review of Long-Term Recovery Plans
                                                                                                                       Kingston Fossil Plant
                                                                                Tennessee Valley Authority - Office of the Inspector General
                                                                         September 21, 2010 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                                    • Page 4


TABLE OF CONTENTS

TITLE PAGE ............................................................................................. 1 
EXECUTIVE SUMMARY ........................................................................... 2 
TABLE OF CONTENTS .............................................................................. 4 
ITEM 1:  INTRODUCTION AND BACKGROUND ..................................... 5 
ITEM 2:  REVIEW OF THE ENGINEERING EVALUATION/COST
         ANALYSIS REPORT AND ACTION MEMORANDUM ............... 9 
        2.1.     AIR ...........................................................................................................................9 
        2.2.     SURFACE WATER...................................................................................................10 
        2.3.     STORM WATER ......................................................................................................12 
            2.3.1.  Sediment and Erosion Control ................................................................................... 12 
            2.3.2.  Storm Water Management.......................................................................................... 12 
        2.4.     NATIONAL POLLUTANT DISCHARGE ELIMINATION SYSTEM
                 COMPLIANCE .........................................................................................................13 
        2.5.     SEDIMENT ..............................................................................................................13 
        2.6.     GROUNDWATER .....................................................................................................14 
        2.7.     BIOLOGICAL ..........................................................................................................16 
        2.8.     RISK ASSESSMENT .................................................................................................17 
ITEM 3:          CONCLUSIONS ..................................................................... 20


APPENDIX
MEMORANDUM DATED SEPTEMBER 17, 2010, FROM ROBERT M. DEACY TO
ROBERT E. MARTIN
                                                                                 Review of Long-Term Recovery Plans
                                                                                                  Kingston Fossil Plant
                                                           Tennessee Valley Authority - Office of the Inspector General
                                                    September 21, 2010 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                               • Page 5


Item 1:        INTRODUCTION AND BACKGROUND
       Marshall Miller & Associates, Inc. (Marshall Miller) was engaged by the Tennessee
Valley Authority (TVA) Office of Inspector General to review the adequacy and completeness
of environmental recovery plans prepared by TVA in response to the ash spill that occurred on
December 22, 2008, at the Kingston Fossil Plant (KIF) located in Harriman, Tennessee. The
intent of Marshall Miller’s review is to evaluate whether TVA’s ongoing response and planning
are providing comprehensive and effective measures to mitigate the short and long-term impacts
from an estimated 5.4 million cubic yards of coal ash that spilled from the on-site dredge cell
into the nearby Emory, Clinch, and Tennessee Rivers and their tributaries. On May 11, 2009,
TVA entered into an Administrative Order and Agreement on Consent with the US
Environmental Protection Agency (EPA) Region IV on May 11, 2009, which directs all
response activities under the Comprehensive Environment Response, Compensation, and
Liability Act (CERCLA). The Administrative Order and Agreement on Consent imposes
requirements for TVA to develop short and long-term plans for mitigating off-site spill impacts
through a process of continued investigation, analysis, and evaluation to determine the extent of
affected media and to assess potential impacts to humans, plants, and animals. The
Administrative Order and Agreement on Consent also requires that TVA address the short and
long-term management of the coal ash including TVA’s clean up of ash from off-site areas and
final containment within the original confines of the KIF facility.

       Marshall Miller reviewed TVA’s ongoing response to mitigating the short-term impacts
(also reported as “time-critical”) and the adequacy and completeness of the environmental
monitoring plans, including a review of relevant documentation related to the sampling of
various media. Marshall Miller also evaluated the long-term restoration efforts. TVA
documents which have been developed to address restoration include the Non-Time Critical
Removal Action Scope and Engineering Evaluation/Cost Analysis Work Plan (Work Plan) dated
October 16, 2009, the Non-Time Critical Removal Action Embayment/Dredge Cell Engineering
Evaluation/Cost Analysis (EE/CA) report dated January 15, 2010, and the Non-Time Critical
Removal Action Embayment/Dredge Cell Action Memorandum (Action Memorandum) dated
April 12, 2010. The EE/CA was released for an initial 30-day public comment period from
                                                                                  Review of Long-Term Recovery Plans
                                                                                                   Kingston Fossil Plant
                                                            Tennessee Valley Authority - Office of the Inspector General
                                                     September 21, 2010 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                • Page 6

January 19 to February 20, 2010. The public comment was extended an additional 45 days to
April 5, 2010, at the request of various public organizations. The draft Action Memorandum was
submitted for EPA and Tennessee Department of Environment & Conservation (TDEC)
review on April 12, 2010, and approved by EPA on May 18, 2010.

       The Work Plan provides a summary of the site conditions, describes sampling and
monitoring activities, includes a Human Health Risk Assessment, Ecological Risk Assessment
and a Screening Level Ecological Risk Assessment, and offers insight into future data needs for
developing long-term monitoring plans with respect to the various media (groundwater, surface
water, air, etc.). The Work Plan’s recommendations include the need for such items as
investigation of human health risk from fish consumption and development of a detailed
sampling and analysis plan for the rivers. The development of a pre-ash spill baseline dataset for
water quality and fish is hampered by legacy constituents, which resulted in impaired status
restrictions of the river systems and fish consumption advisories prior to the ash spill.

       The EE/CA is intended to evaluate options for restoring the Swan Pond Embayment area
in accordance with the Administrative Order and Agreement on Consent. As recommended in
the Work Plan, a separate EE/CA for the river system (including the Emory, Clinch, and
Tennessee Rivers) is scheduled to be prepared after additional assessment of the ecological
impacts in the rivers is completed. The EE/CA for the river systems is deferred until a unified
strategy can be developed based on specific clean-up goals. As the dredging of the Emory River
was completed in late May 2010, except for some isolated areas, TVA has begun the preparation
of a subsequent EE/CA for the river system.

       The EE/CA provides a description of the removal action objectives which are developed
based on the results of the Human Health Risk Assessment and Screening Level Ecological Risk
Assessment. The removal action objectives are described below:

              Minimize direct contact between ash material in the embayment and water
               flowing through the embayment area into the Watts Bar Reservoir.

              Minimize the migration of ash and its constituents from the embayment or Dredge
               Cell into affected water due to erosion.
                                                                                 Review of Long-Term Recovery Plans
                                                                                                  Kingston Fossil Plant
                                                           Tennessee Valley Authority - Office of the Inspector General
                                                    September 21, 2010 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                               • Page 7

              Minimize direct contact exposure by human, plants, or animals to any ash on the
               ground.

              Restore the embayment to pre-spill conditions.

              Close the former Dredge Cell in accordance with Tennessee Solid Waste Rule
               1200-1-7.

              Dispose of waste streams from the removal action.

       The risk assessments were completed to evaluate potential risks for both human, plants,
and animals and identify potential exposure pathways. The Human Health Risk Assessment
indicated that there was potential risk due to possible exposure and, therefore, a removal action
was needed to mitigate the threat or potential threat. The Screening Level Ecological Risk
Assessment indicated that, while potential risk exists, removal of the ash and capping of the
Dredge Cell eliminates the exposure pathways and a Baseline Ecological Risk Assessment is not
needed.

       Based on these removal action objectives, the EE/CA describes three potential
remediation alternatives for restoring the Swan Pond Embayment. Each alternative was
evaluated with respect to its effectiveness to meet the removal action objectives,
implementability, and overall cost, including yearly operation and maintenance (O&M) costs. A
brief description of each alternative is provided below:

              Alternative 1: Excavate all ash from the embayment, the test embankment, Dike
               2, and the settlement basin and dispose offsite (2.8 million cubic yards). Leave
               remaining ash in the Dredge Cell and close in place.

              Alternative 2: Excavate all ash from the same areas noted above and 3.7 million
               cubic yards of ash from the Dredge Cell and dispose offsite (6.5 million cubic
               yards). The remaining ash in the Dredge Cell would be closed in place. The
               objective of removing additional ash from the Dredge Cell will be to reduce
               reliance on the dike.

              Alternative 3: Excavate all ash from the embayment and dispose onsite within
               the Dredge Cell, which would be closed in place. Alternative 3b included closure
               of the Ash Pond concurrent with closure of the Dredge Cell.
                                                                                  Review of Long-Term Recovery Plans
                                                                                                   Kingston Fossil Plant
                                                            Tennessee Valley Authority - Office of the Inspector General
                                                     September 21, 2010 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                • Page 8

       Each alternative requires removal of ash either by using mechanical excavation methods
such as backhoes and scrapers, or hydraulic dredging for material below the water surface. The
ash management systems currently in place for the time-critical removal action will be continued
for this phase. Dredged material will be pumped to the Rim Ditch to allow solids to settle, and
the solids will then be removed from the ditch, allowed to dry, and loaded onto railcars or trucks
for offsite disposal. For alternative 3, ash will be trucked for onsite disposal.

       The EE/CA determined that each alternative met the removal action objective, including
restoration of the embayment to pre-spill conditions, and would comply with the applicable or
relevant and appropriate requirements.

       Though not initially included in the EE/CA, the EPA considered public comment and
responded with the Action Memorandum dated May 18, 2010. The EPA’s approved Action
Memorandum provided the rationale for the selection of alternative 3b for the remediation and
restoration of the Swan Pond Embayment, which includes placing the excavated ash in the
former Dredge Cell. The Action Memorandum provides a discussion of how TVA proposes to
implement alternative 3b and addresses comments received during the public comment period
for the EE/CA. The Action Memorandum also indicates that TVA will prepare a removal action
work plan for the actual implementation of alternative 3b.
                                                                                 Review of Long-Term Recovery Plans
                                                                                                  Kingston Fossil Plant
                                                           Tennessee Valley Authority - Office of the Inspector General
                                                    September 21, 2010 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                               • Page 9


Item 2:        REVIEW OF THE ENGINEERING EVALUATION/COST
               ANALYSIS REPORT AND ACTION MEMORANDUM
        Marshall Miller was tasked with reviewing the adequacy of the proposed remediation
alternatives presented in the EE/CA to provide long-term protection of the environment by
minimizing the exposure pathways of humans, plants, animals, and waters (ground and surface)
to the ash.

        The intent of the EE/CA is to provide a conceptual overview of the proposed alternatives
with regard to the ability of each alternative to meet the overall intent of the clean-up program.
As such, the EE/CA does not include a detailed design or a discussion of a long-term monitoring
program.

2.1.    AIR
        During excavation of the embayment, one of the primary pathways for off-site exposure
is through inhalation of fugitive dust from ash. The EE/CA states that dust will be controlled by
seeding and mulching finished graded areas and other disturbed areas promptly, and by wetting
haul roads (or other disturbed areas) or applying approved chemicals (such as Flexterra), as
needed. These methods were used for the time-critical removal actions, and the air monitoring
data indicates that they worked as intended. Additionally, the EE/CA outlines the “Action-
specific” applicable or relevant and appropriate requirements for activities causing fugitive dust
emissions:

              Use, where possible, of water or chemicals for the control of dust and in
               demolition of existing buildings or structures, construction operations, grading of
               roads, or the clearing of land.

              Application of asphalt, oil, water, or suitable chemicals on dirt roads, materials
               stock piles, and other surfaces, which can create airborne dusts.

              Shall not cause or allow fugitive dust to be emitted in such a manner to exceed
               5 minutes/hour or 20 minutes/day beyond property boundary lines on which
               emission originates.
                                                                                   Review of Long-Term Recovery Plans
                                                                                                    Kingston Fossil Plant
                                                             Tennessee Valley Authority - Office of the Inspector General
                                                      September 21, 2010 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                • Page 10

       Neither the EE/CA nor Action Memorandum provides a detailed description of the air-
monitoring program during excavation, though the cost estimates provided in Appendix D of the
EE/CA include line item costs for continuous air sampling that corresponds with the projected
construction schedule for each alternative. The Action Memorandum also indicates that the Site
Dust Control and Air Monitoring Plan will be revised to address the selected removal action in
alternative 3b.

       Other exposure pathways identified include adolescent or adult use of the river systems
for recreation or fishing, which may lead to exposure to ash-impacted sediment in the Emory,
Clinch, and Tennessee Rivers during the winter when the Watts Bar Reservoir is lowered to
winter pool. People using the river for recreation may be exposed to residual ash and sediment
via incidental ingestion, dermal contact, and external exposure to radionuclides. Inhalation of
fugitive dust would be negligible due to the water content of the exposed sediments.

       The Screening Level Ecological Risk Assessment identifies the exposure pathways for
fugitive dust for terrestrial and aquatic plants as follows:

                 Direct contact, leaf absorption of fugitive dust, leaf absorption of constituents in
                  dust deposited on leaves, root uptake of groundwater, surface water, or porewater.

       A discussion on post-closure air monitoring is not included in the EE/CA or the Action
Memorandum. Nevertheless, there will be little or no pathways from fugitive dust emissions
once the ash is removed from the embayment and the Dredge Cell is closed.

2.2.   SURFACE WATER
       Two types of water quality impacts resulting from the ash release are from the bulk
impact of the ash material itself as well as the suspended and dissolved ash in the water. The
metals contained in the ash are of the greatest concern. Of the samples collected from the Swan
Pond Embayment, antimony, arsenic and selenium have each exceeded at least one water quality
criteria. Arsenic concentrations ranged from 0.0123 to 0.0792 mg/L, which exceeded the EPA’s
Maximum Contaminant Level for drinking water and TDEC’s Ambient Water Quality Criteria,
both of which are 0.010 mg/L. For comparison, the average arsenic concentration for samples
collected from the Emory River is 0.0315 mg/L, with a maximum concentration of 1.89 mg/L.
                                                                                  Review of Long-Term Recovery Plans
                                                                                                   Kingston Fossil Plant
                                                            Tennessee Valley Authority - Office of the Inspector General
                                                     September 21, 2010 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                               • Page 11

The average selenium concentration (0.00913 mg/L) exceeds the various criteria for Fish and
Aquatic Life (0.02 to 0.005 mg/L). Maximum concentrations of other metals have also exceeded
Ambient Water Quality Criteria. As the Tennessee River is a source for drinking water, TDEC
has conducted weekly sampling at the two downstream water treatment plants closest to the spill
site. Results do not indicate any levels above regulatory thresholds at the raw water intakes.

       Surface water was identified as one of the media with potential exposure pathways for
recreational activities (swimming and fishing) and via ingestion or dermal contact from handling
or drinking the water without treatment. The Screening Level Ecological Risk Assessment
included surface water as a media for aquatic exposures and selected 17 inorganic constituents in
the Emory River, 17 constituents in the Clinch River and 17 constituents in the Tennessee River
as constituents of potential ecological concern; many were identified as components of fly ash.
Based on available evidence, the Screening Level Ecological Risk Assessment concluded that
the possibility of adverse ecological risks through surface water exposure “cannot be excluded.”
However, the Screening Level Ecological Risk Assessment concluded that since “remedies for
this area of the site will eliminate the potential exposure pathways” for plants and animals, “a
Baseline Ecological Risk Assessment is not warranted…”

       Surface water originating upgradient of the embayment is currently routed around the ash
by a series of clean water ditches. The alternatives, including the alternative 3b, outlined in the
EE/CA all propose to maintain these ditches to the extent possible during the excavation of ash
to allow surface water to continue to bypass the ash. Dike 2, which was installed to isolate the
non-time critical areas (embayment) from the time-critical removal action, will be left in place
until all ash is removed from the embayment and will allow TVA to control and monitor surface
water from the embayment.

       While the EE/CA does not discuss a proposed surface water-monitoring program during
construction, the Action Memorandum states that the existing Surface Water Monitoring Plan
will be revised to address the chosen alternative 3b. Additionally the cost estimates in Appendix
D of the EE/CA contain line-item costs for environmental monitoring that include weekly
surface water sampling. The duration corresponds with the projected construction schedule for
                                                                                 Review of Long-Term Recovery Plans
                                                                                                  Kingston Fossil Plant
                                                           Tennessee Valley Authority - Office of the Inspector General
                                                    September 21, 2010 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                              • Page 12

each alternative. Any revisions to the Surface Water Monitoring Plan should be reviewed prior
to implementation.

2.3.     STORM WATER
         The main concerns regarding storm water management during the removal action include
(1) providing sediment and erosion control during the implementation of proposed remedial
action alternatives, (2) the integration of storm water management measures into the proposed
remedial action alternatives, and (3) complying with National Pollutant Discharge Elimination
System requirements.

2.3.1.     Sediment and Erosion Control

         Although the EE/CA does not appear to specifically mention the facility’s Storm Water
Pollution Prevention Plan, the implementation of temporary and permanent sediment and
erosion control measures are discussed throughout the document. The cost estimate in Appendix
D of the EE/CA has numerous line item references to temporary and permanent erosion control
measures such as silt fencing, vegetative cover, and turf reinforcement mat, indicating that these
measures will likely be installed.

2.3.2.     Storm Water Management

         The EE/CA does not appear to discuss how the proposed remediation alternatives would
alter the site’s storm water hydrology. The conceptual design provided in Appendix C of the
EE/CA is noted to have included the installation of a perimeter ditch for storm water
management. However, the design did not identify if hydrologic goals, such as achieving target
peak flow rates or reducing runoff volume, exist for each of the design alternatives. The EE/CA
does not discuss if the proposed alternatives would alter or improve storm water conditions (flow
rates, volumes, and velocities), especially when compared to pre-existing site conditions. It is
assumed that this information would be provided in the final design document per the
recommendation of the Action Memorandum for the Stormwater Management Plan to be revised
to address the selection of alternative 3b.
                                                                                 Review of Long-Term Recovery Plans
                                                                                                  Kingston Fossil Plant
                                                           Tennessee Valley Authority - Office of the Inspector General
                                                    September 21, 2010 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                              • Page 13

       Both the EE/CA and Action Memorandum discuss the importance of the timing of the
embayment and dredge cell decision since “although the clean water ditches have been designed
for a 25-year recurrence interval, some of the drainage features in the embayment (sediment
basins) have been sized for a storm event having only a 2-year recurrence interval; a delay in the
decision would increase the risk of future ash releases during greater storm events.”

2.4.   NATIONAL POLLUTANT DISCHARGE ELIMINATION SYSTEM COMPLIANCE
       TVA has three National Pollutant Discharge Elimination System permits associated with
KIF including the facility permit (Permit No. TNR0005452) and two general permits, the
Tennessee Storm Water Multi-Sector Permit for Industrial Activities (Permit No. TNR050000),
and the Tennessee General National Pollutant Discharge Elimination System Permit for
Discharges of Stormwater Associated with Construction Activities (Permit No. TNR100000).

       The EE/CA mentions discharging settling water through National Pollutant Discharge
Elimination System points in several places and continuation of compliance with National
Pollutant Discharge Elimination System water quality limits. The EE/CA also discusses
compliance with an Aquatic Resource Alteration Permit, which also has requirements for water
quality protection, site stabilization, and sediment and erosion control. The Action Memorandum
notes that the current National Pollutant Discharge Elimination System monitoring program will
be continued during restoration of the embayment.

2.5.   SEDIMENT
       TVA is using a combination of grab and Vibracore sampling devices designed to retrieve
recent and historic deposition, respectively, to characterize ash and sediment in the Emory and
Clinch Rivers. The grab samples provide an opportunity to analyze recently deposited sediments
impacted by the spill while the deeper Vibracore sampler allows access to recent and pre-spill
deposition. Additionally, TVA is using a sub-bottom profiler to create a survey of ash
distribution in the rivers. There is no indication that TVA has attempted to characterize the
sediment or extent of ash in the Swan Pond Embayment; however, since the ash spill completely
filled the embayment and the proposed alternatives are intended to completely remove all ash
from the embayment, a characterization of the sediment is not warranted at this time.
                                                                                 Review of Long-Term Recovery Plans
                                                                                                  Kingston Fossil Plant
                                                           Tennessee Valley Authority - Office of the Inspector General
                                                    September 21, 2010 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                              • Page 14

       The EE/CA indicates that the removal of the ash from the Swan Pond Embayment would
remove “metals and radionuclides that could produce toxic effects on the health and safety of
humans and animals. Water quality would be restored to meet Ambient Water Quality Criteria
in surface water within the embayment.” Both the EE/CA and Action Memorandum note that
dredging will be necessary in certain areas of the embayment.

       Beyond sampling and analysis of sediments, planning for long-term river recovery efforts
is affected by the nature of the ash and natural sediments along with their interactions in the
natural system. Both the EE/CA and the Action Memorandum note that additional evaluation of
the river system will be completed under a separate EE/CA. The EE/CA reports that TVA has
retained the US Army Corps of Engineers, Engineering Research and Development Center
at Waterways Experiment Station to develop and run a computer model called Adaptive
Hydraulics to assist in the assessment of ash behavior in the Emory and Clinch Rivers and to
conduct laboratory flume experiments (SedFlume) to evaluate the resistance of this material to
erosion on the river bottom. This information is considered vital to formulating a long-term
clean-up strategy for the river sediments. As previously stated, the EE/CA for the river system,
which will address the long-term clean-up strategy, will be completed at a later date and will
address the results of the study.

2.6.   GROUNDWATER
       Currently there are six monitoring wells around the Dredge Cell and the Ash Dewatering
area. The EE/CA presents a discussion of the results of a sampling event conducted in June
2009. Arsenic was detected in one well (KIF-AD2) at a concentration of 0.0297 mg/L which is
above the Maximum Contaminant Level of 0.010 mg/L. Historical concentrations are not
available for this well as the well was relatively recently installed. Arsenic was detected in two
other wells but at concentrations below the Maximum Contaminant Level. A review of the
historical data indicates that arsenic concentrations occasionally exceeded the Maximum
Contaminant Level in monitoring well KIF-6A.

       The EE/CA further acknowledges that since there is no liner beneath the Dredge Cell,
constituents in groundwater could impact the river; however, surface water sampling has not
                                                                                 Review of Long-Term Recovery Plans
                                                                                                  Kingston Fossil Plant
                                                           Tennessee Valley Authority - Office of the Inspector General
                                                    September 21, 2010 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                              • Page 15

shown exceedances of the surface water quality criteria in the river (not associated with dredging
operations). While the surface water quality in the river system may be adequate with respect to
the Tennessee Fish and Aquatic Life Criteria, it may be more appropriate to discuss groundwater
impacts related to the Swan Pond Embayment since groundwater from the Dredge Cell likely
discharges to the embayment. Surface water quality data collected from the embayment
indicates that antimony, arsenic, and selenium have exceeded at least one water quality criteria.

       TVA recognizes the need for a hydrological assessment of KIF and is developing detailed
plans to determine the potential long-term impact that groundwater beneath the Dredge Cell and
Ash Pond may have on surface water in the Watts Bar Reservoir. This hydrological assessment
will be conducted as part of a subsequent EE/CA prepared for the river system, not as part of the
EE/CA for the Swan Pond Embayment reviewed in this report. Both the EE/CA and the Action
Memorandum state that groundwater remediation was not identified as a removal action
objective and provide the following rationales: lack of an identified contaminant plume, no
evidence of leaching of metals from the ash, and a low permeability, silty clay layer that inhibits
groundwater flow. However, without a detailed hydrogeologic assessment that identifies how
groundwater moves from the Dredge Cell to the adjacent surface waters, it is difficult to
determine whether the existing monitoring wells are properly located within the correct
lithological unit or fracture zone.

       The EE/CA identifies the potential exposure pathways in groundwater to include the
following scenarios.

              Adult and Child Resident: Exposure parameters for this scenario will be the
               default values established by the EPA. Future on-site residents may be exposed to
               groundwater used for household water supply through ingestion, inhalation of
               water vapor, and dermal contact. The residential exposure scenario is appropriate
               due to current use of surrounding properties.

              Indoor Worker (office or light industrial worker): Future indoor workers
               involved in office or light industrial work at KIF may be exposed to groundwater
               as a potable supply. Exposure parameters for this scenario will be the default
               values established by the EPA. Indoor workers may be exposed to groundwater
               through ingestion. Dermal contact and inhalation of water vapor are not
                                                                                  Review of Long-Term Recovery Plans
                                                                                                   Kingston Fossil Plant
                                                            Tennessee Valley Authority - Office of the Inspector General
                                                     September 21, 2010 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                               • Page 16

               considered to be significant pathways of exposure for indoor workers due to the
               limited use of water in industrial or office settings.

       Although groundwater is included in the Human Health Risk Assessment, groundwater is
excluded in the Ecological Conceptual Site Model portion of the Work Plan. That model
excludes groundwater as a source of contamination due to the lack of exposure pathway in this
site setting. Instead, surface water is included as an exposure medium for both ecological and
human health risks.

       Alternative 3b chosen for the closure of the Dredge Cell includes a foundation treatment
zone (soil-cement columns installed to bedrock) with lower permeability than the sandy alluvium
soils beneath the site to provide support for reconstruction of the dike and will also serve to
retard groundwater transport. The final cap for the Dredge Cell will serve to reduce leachate
generation in compliance with TDEC regulations. Additionally, TVA will develop a plan for
long-term groundwater monitoring to ensure that contaminants are discovered before reaching
drinking water wells or sensitive plants or animals. The Action Memorandum outlines a
monitoring program that includes quarterly sampling for the first year and then, if supported by
analytical data, reduction of the sampling frequency to semi-annually for the remainder of the
30-year, post-closure period.

2.7.   BIOLOGICAL
       An evaluation is underway to identify the pre-spill conditions of the Emory and Clinch
Rivers to assist in determining damages to the natural resources resulting from the spill. Existing
data from TVA and the Tennessee Wildlife Resources Agency (TWRA) surveys is being
utilized in this effort. Ash deposits resulting from the KIF spill may physically degrade or
eliminate the habitat for bottom dwelling organisms. Approximately 2.51 acres of palustrine
wetlands were affected by the ash spill in addition to ash deposition in open water areas. Fish
have been collected from the Emory and Clinch Rivers by TWRA for tissue chemical analyses.
An ongoing, fish-sampling program will continue on an annual or semi-annual basis.
Collections of amphibians, tree swallow eggs and hatchlings were performed during a three-
month period for metals analyses. Surveys and sampling for amphibians and birds are ongoing,
and long-term impacts will not likely be known for some time.
                                                                                 Review of Long-Term Recovery Plans
                                                                                                  Kingston Fossil Plant
                                                           Tennessee Valley Authority - Office of the Inspector General
                                                    September 21, 2010 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                              • Page 17

       Reference data for metals in fish were collected after the spill and are being utilized along
with historical samples in the Human Health Risk Assessment. However, use of the Emory
River is primarily recreational. Currently there are fish consumption advisories in place for the
Emory River and Watts Bar Reservoir; however, both were in place prior to the ash spill. The
Screening Level Ecological Risk Assessment identified multiple exposure routes for terrestrial
and aquatic organisms to be exposed or experience uptake of constituents related to the ash.
Findings of the Screening Level Ecological Risk Assessment indicate there are significant
uncertainties remaining for river systems. Human health risks for eating fish need to be defined.
The Screening Level Ecological Risk Assessment indicates a potential ecological risk, but the
risk needs to be better defined to determine if further action is needed after the ash is removed.

2.8.   RISK ASSESSMENT
       The process of assessing the human health risk is a very significant decision making tool
used to estimate site-specific carcinogenic and non-carcinogenic risks due to potential exposure
to chemicals. The results of a risk assessment can be used to decide whether site clean up is
required, and if so, to develop site-specific clean-up levels. These clean-up levels can then be
used to design and implement effective remediation systems.

       The process generally consists of the following steps:

              Step 1: Compilation of all available relevant data, an evaluation that sufficient
               data are available to undertake a risk assessment, and the identification of
               chemicals of concern.

              Step 2: Development of an exposure model that considers the current and future
               land use to identify how human may be exposed to chemicals. This step identifies
               the manner, termed “exposure pathways,” by which a receptor may come in
               contact with the chemicals. For each exposure pathway, this step involves an
               estimation of the uptake or dose.

              Step 3: Identification of quantitative and qualitative toxicity of the chemicals of
               concern. These values are typically obtained from EPA-published sources or peer
               reviewed, open source literature.

              Step 4: Use of information collected in the above three steps to estimate site-
               specific risk. In particular, risk is calculated by combining the site-specific
               exposures calculated in Step 2 and the toxicity values obtained in Step 3.
                                                                                          Review of Long-Term Recovery Plans
                                                                                                           Kingston Fossil Plant
                                                                    Tennessee Valley Authority - Office of the Inspector General
                                                             September 21, 2010 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                       • Page 18

                  Typically, a risk assessment is of interest to numerous stakeholders, many of
                  whom do not have a formal background or familiarity with the risk assessment
                  process. Therefore, the Human Health Risk Assessment should be clearly
                  documented so that it is transparent, all assumptions are clearly presented and the
                  implications on the overall conclusions are discussed.

         The KIF Human Health Risk Assessment follows the process outlined by the EPA and in
other documents referenced in the subject risk assessment, and in this regard, it is a well-
developed risk assessment.

         The process of assessing the human health risk also requires several inputs, models that
describe the quantitative relationship between the various inputs, and calculations. Inputs
include the representative concentration, exposure factors (e.g. the amount of air a person
breathes in a day), and toxicity values. Several of these inputs are typically not measured at a
site and have to be obtained from literature sources. At times, selection of the input parameters
requires considerable professional judgment. Clearly, the results of the risk assessment critically
depend on the input parameters selected, assumptions used to select these values, and the models
used to perform the calculations. Any errors in the selection of the inputs, the calculation of
representative concentrations, or the application of the models will result in errors in the risk
assessment.

         The RAM Group3 reviewed the KIF Human Health Risk Assessment, and identified
some discrepancies in the Human Health Risk Assessment. However, the selected remediation
option includes the removal of all ash from the Swan Pond Embayment, the associated risk is
reduced and correction of these discrepancies would not alter the overall selection of alternative
3b. Review comments were submitted to the TVA who indicted that these comments would be
considered during development of the Human Health Risk Assessment for the river system.

         The RAM Group’s review of the Screening Level Ecological Risk Assessment
determined that the ecological risk assessment follows the procedure described in the referenced
EPA documents and compares the site concentrations with the appropriate screening levels. The
selected screening levels were found to be accurate, and comparison of the site concentrations


3
    Marshall Miller retained the RAM Group, for its expertise with risk assessments.
                                                                               Review of Long-Term Recovery Plans
                                                                                                Kingston Fossil Plant
                                                         Tennessee Valley Authority - Office of the Inspector General
                                                  September 21, 2010 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                            • Page 19

with these screening levels had been performed correctly and the conclusions drawn are
reasonable and supported by the analysis. Therefore, no revisions or changes to the Screening
Level Ecological Risk Assessment are recommended.
                                                                                 Review of Long-Term Recovery Plans
                                                                                                  Kingston Fossil Plant
                                                           Tennessee Valley Authority - Office of the Inspector General
                                                    September 21, 2010 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                              • Page 20


Item 3:        CONCLUSIONS
       Generally, Marshall Miller finds no significant deficiencies in any of the proposed
alternatives for the restoration of the Swan Pond Embayment, including the selected alternative
3b. The documents prepared by TVA appear to be substantially in compliance with applicable
regulatory requirements stated in the Administrative Order and Agreement on Consent and
meeting the removal action objects outlined in the EE/CA.

       Both the EE/CA and Action Memorandum are intended to provide only a conceptual
design of each of the three alternatives. Since alternative 3b has been selected, a more detailed
design should be completed, along with plans for monitoring potential environmental impacts
during excavation of the ash and closure of the Dredge Cell. Additionally, the EE/CA provides
limited detail on the long-term monitoring of various media for potential environmental impacts.
The EE/CA does state that a long-term monitoring plan will be developed once a final remedy is
selected and that a detailed hydrogeological evaluation of the area will be completed as part of a
subsequent EE/CA prepared for the rivers. TVA should continue to follow the monitoring
programs for the various media already in place until plans are updated to reflect the selections
of alternative 3b. To date, these programs have proven effective in assessing any environmental
impacts from the removal of the ash.

       Marshall Miller’s concern with the selected alternative is the evaluation of groundwater
contamination and an understanding of the fate and transport of contaminants within the
underlying aquifers. Ash remaining in the Dredge Cell has been and will remain in contact with
groundwater, thus remaining a potential source of contamination. The EE/CA includes a brief
discussion on post-closure groundwater monitoring and makes the assumption for cost
estimating purposes that up to four monitoring wells will be installed and monitored quarterly.
Insufficient information is currently available to assess whether this is an adequate number of
wells or whether the wells are screened at the correct depth. The EE/CA notes that a more
detailed monitoring plan will be developed for the selected alternative. Additional
characterization of site geology is proposed for the EE/CA for the river to evaluate the
                                                                                  Review of Long-Term Recovery Plans
                                                                                                   Kingston Fossil Plant
                                                            Tennessee Valley Authority - Office of the Inspector General
                                                     September 21, 2010 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                               • Page 21

interaction between groundwater and surface water and the fate and transport of ash related
constituents.

       The following recommendations are provided to TVA:

               The appropriate sampling plans should be revised to address the modifications
                necessary due to the selection of alternative 3b for the restoration of the Swan
                Pond Embayment.

               A more detailed understanding of groundwater discharge and associated
                contaminant migration into the surface water is required in order to properly
                locate monitoring wells. Siting of the groundwater monitoring wells for the
                closed Dredge Cell should be based on the results of additional hydrogeological
                evaluation.

Management's Response – The Senior Vice President and Executive, Kingston Ash
Recovery Project, provided comments on a draft of this report and agreed to implement
the recommendations.

       In response to the recommendations, management provided the following comments:

               The Surface Water Monitoring Plan for the Emory, Clinch and Tennessee Rivers
                was updated and approved by the regulators on July 23, 2010.

               The Site Dust Control and Ambient Air Monitoring Plan was updated and
                approved by the regulators on July 23, 2010.

               The Non-Time-Critical Removal Action for the River System Sampling and
                Analysis Plan includes a groundwater study. Results of the modeling will be used
                to support the selections of appropriate locations for groundwater monitoring
                wells for the closed Dredge Cell.

The complete text of TVA management's response is provided in the Appendix.

Auditor's Comments – We concur with TVA management's planned and completed actions.
APPENDIX
Page 1 of 2
APPENDIX
Page 2 of 2
